                                Office of Inspector General
                                                          October 2013

Business Loans                              Government Seeks $10 Million in For-         transactions, the brother then failed to
                                            feitures From Four Indicted in Illinois      claim that income on his taxes. This is a
Alabama Man Indicted on 33 counts of                                                     joint investigation with the FBI; Internal
fraud and 18 counts of false statements     On October 10, 2013, four individuals        Revenue Service (IRS), Criminal Investi-
                                            were indicted in Illinois. The first indi-   gation Division (CI); and the Federal De-
On October 3, 2013, an Alabama man          vidual, a former SBA market president        posit Insurance Corporation, OIG.
was indicted on three counts of wire        at a Chicago-area bank, was charged
fraud, 18 counts of false statements, and   with one count of bank fraud. The sec-       Alabama Woman Sentenced on Money
30 counts of bank fraud. One count of       ond individual, a seller of multiple gas     Laundering Charges
wire fraud and the 18 counts of false       stations, was charged with nineteen
                                                                                         On October 15, 2013, an Alabama wom-
statements were directly related to his     counts of bank fraud, three counts of
                                                                                         an was sentenced to 12 months’ proba-
perpetration of fraud in connection with    bribing a bank official, and one count of
                                                                                         tion after having previously pled guilty to
a $1.76 million SBA Section 504 loan. As    filing a false tax return. The third indi-
                                                                                         one count of money laundering. The
a requirement for this loan, he had to      vidual, a business partner of the gas
                                                                                         sentence was a downward departure
make a cash injection of $736,920. As       station seller, was charged with four
                                                                                         from the sentencing guidelines, based
proof that $564,745 of the cash injection   counts of bank fraud. The fourth indict-
                                                                                         on the substantial assistance she provid-
was paid, he generated and submitted        ed individual, a former accountant, was
                                                                                         ed during the investigation. The investi-
falsified copies of ten cancelled checks.   charged with one count of bank
                                                                                         gation determined that at the request of
In reality, none of the checks provided     fraud. The indictment seeks forfeitures
                                                                                         her boyfriend, the woman submitted
were ever issued or paid. The 2 addi-       of over $10 million, representing pro-
                                                                                         false income and employment infor-
tional counts of wire fraud and the 30      ceeds of the fraud scheme. The indict-
                                                                                         mation to obtain a $40,000 loan from a
counts of bank fraud relate to non-SBA      ment alleges that (1) the former SBA
                                                                                         bank using her boyfriend’s 2004 Mer-
loans provided by other lenders. This       market president and the seller of the
                                                                                         cedes Benz as collateral. She then sub-
matter was referred to the OIG by the       gas stations worked together to get
                                                                                         mitted a false letter of employment and
SBA Little Rock Commercial Loan Servic-     unqualified SBA borrowers approved to
                                                                                         a false IRS Form W-2 that her boyfriend
ing Center and is a joint investigation     purchase gas stations that the seller
                                                                                         created for her. At the direction of her
with the Federal Bureau of Investigation    would “flip” with his business partner;
                                                                                         boyfriend, she wired $20,000 of the loan
(FBI).                                      (2) the former SBA market president
                                                                                         proceeds to pay a debt owed by her boy-
                                            and the seller utilized the former ac-
                                                                                         friend’s company. This is a joint investi-
                                            countant to create false tax returns
California Man Indicted on $1,839,360                                                    gation with the Army CID, the IRS CI, and
                                            needed for the loan files; and (3) the
Loss to the SBA and Various Banks                                                        the Defense Criminal Investigative Ser-
                                            business partners provided the former
                                                                                         vice (DCIS).
On October 8, 2013, a California man        SBA market president “kickbacks,” with
was indicted on three counts of making      a cash value exceeding $150,000, in
                                                                                         President of Missouri Construction Com-
false statements to a bank and one          return for his actions in getting the
                                                                                         pany Sentenced
count of making false statements to the     loans approved. In addition, on Octo-
government. The investigation revealed      ber 30, 2013, the brother of one of the      On October 17, 2013, the president of a
that he had previously obtained three       business partners was charged by crimi-      Missouri construction company was sen-
loans from a bank and was in default on     nal information with two counts of fail-     tenced to one year of probation after
those loans for approximately $700,000      ing to file a tax return. The brother was    having previously pled guilty to one
when he applied for and obtained two        paid loan commissions by the bank be-        count of aiding and abetting the misap-
SBA 7(a) loans and one SBA Section 504      cause the former SBA market president        plication of bank funds. The investiga-
loan. His SBA loans all defaulted early     listed him as a loan broker on multiple      tion disclosed that he signed a $300,105
and resulted in losses to the banks and     loans, even though he had nothing to         promissory note for a line of credit from
the SBA totaling $1,839,360. This is a      do with them. After making $340,000          a bank, stating the purpose was to pro-
joint investigation with the FBI.           for doing nothing associated with these
                                                                                                                         Page 2

                         vide business funds for his        Complaint Filed Against SBA        er of a business and apply for
                         construction firm. On that         Lender in Wyoming                  an SBA-guaranteed business
                         same day, he aided and                                                loan for $4.5 million to pur-
                         abetted a former bank execu-       On October 28, 2013, the U.S.      chase two gas stations in
                         tive vice-president, and oth-      Attorney’s Office, District of     southern California. The su-
                         ers, by obtaining a $262,648       Wyoming, filed a Complaint         perseding indictment also
                         draw on the line of credit and     in Intervention against an SBA     alleges that the financial insti-
                         causing a wire transfer of the     lender located in Cody, Wyo-       tution was misled into believ-
                         same amount to a second            ming. The complaint was the        ing that the fictitious owner
                         bank to benefit parties con-       result of a qui tam action filed   made a $2.1 million down
                         nected to the first bank. The      by a business. It alleged that     payment to purchase the two
                         man is one of 18 people            the lender knowingly made          gas stations. The superseding
                         charged in a complex conspir-      several material false or          indictment further alleges
                         acy to defraud the first bank      fraudulent statements to the       that two of the individuals
                         and the SBA. To date, 12 of        SBA or failed to provide ma-       skimmed large portions of
                         the 18 defendants have pled        terial information as required     cash from the business for
                         guilty. The trial for the re-      for the $2 million SBA Section     personal expenses, which
                         maining defendants is cur-         504 loan to the business.          included payments to crimi-
                         rently scheduled for February                                         nal defense attorneys who
                         2014. This is a joint investiga-   Three Indicted in California       were representing them. This
                         tion with the FBI.                                                    investigation was conducted
                                                            On October 31, 2013, in Cali-
                                                                                               by the OIG, and the newer
                                                            fornia, a superseding indict-
                                                                                               activities in the case were
                         California Woman Charged           ment was unsealed charging
                                                                                               worked jointly with the FBI.
                                                            two individuals with two
                         On October 25, 2013, a Cali-
                                                            counts each of wire fraud and
                         fornia woman was charged in
                                                            one count each of committing       Government
                         a criminal information with
                                                            an offense while on pre-trial
                         one count of false statements
                                                            release. Another individual        Contracting
                         to a federally insured finan-
                                                            was also charged in this in-
                         cial institution. The woman, a                                        Virginia Man Pleads Guilty to
                                                            dictment with two counts of
                         former “New Accounts Rep-                                             Conspiracy
                                                            wire fraud and one count of
   Two charged in        resentative” at a bank, was
                                                            false statements to law en-        On October 2, 2013, a Virgin-
                         initially approached to pro-
superseding indictment                                      forcement. Two of the indi-        ia man who claimed status as
                         vide information about her
                                                            viduals were previously in-        a Service-Disabled Veteran-
  for committing an      involvement in the deposit of
                                                            dicted in May 2012, for exe-       Owned       Small    Business
                         fraudulently obtained SBA
   offense while on                                         cuting a scheme to defraud a       (SDVOSB), pled guilty to a
                         loan proceeds into a business
                                                            lender and SBA by making           criminal information charging
  pre-trial release.     account at the bank. During
                                                            false statements to obtain         him with one count of con-
                         the course of the investiga-
                                                            business loans for a gas sta-      spiracy.    The investigation
                         tion, it was discovered that
                                                            tion/car wash. The recent          disclosed that the man con-
                         she had stolen approximately
                                                            superseding         indictment     spired with other SDVOSBs to
                         $362,875 from seven Certifi-
                                                            charged that while the origi-      obtain federal government
                         cate of Deposit accounts at
                                                            nal case was pending trial,        contracts through fraud and
                         the bank. This is a joint inves-
                                                            that the three individuals         misrepresentation.    Specifi-
                         tigation with the FBI.
                                                            mentioned above and others         cally, the man and employees
                                                            engaged in yet another             of other SDVOSBs conspired
                                                            scheme, to defraud a sepa-         to submit what appeared to
                                                            rate financial institution and     be competing bids for gov-
                                                            the SBA. According to the          ernment contracts. In reality,
                                                            superseding indictment, one        the bids were not true com-
                                                            of the individuals was paid        petitive bids. This practice
                                                            $100,000 to pose as the own-
                                                                                                                                          Page 3

restricted legitimate competi-     Agency Management
tion by creating the false im-
pression that the government
                                   Audit Report 14-02
had already received multiple
                                   On October 24, 2013, the OIG issued Audit Report 14-02, The SBA’s FY 2012 Reported Improper
competing bids. The man
                                   Payment Rate for Disbursements and Contracting was Inaccurate and Incomplete. This report
made at least $80,900 as a
                                   presented the results of the OIG’s review of the SBA’s FY 2012 Invoice Payments for Contracting
result of his participation in
                                   Activities.
the conspiracy. This is a joint
investigation with the Depart-     The OIG found that the SBA made significant progress in reducing the improper payment rate for
ment of Homeland Security          disbursements and contracting from 89 percent in FY 2011 to 9.6 percent in FY 2012. However,
(DHS) OIG, the Department of       the OIG determined that the information presented in the SBA’s FY 2012 Agency Financial Re-
Veterans Affairs (VA) OIG,         port was inaccurate and the reported improper payment rate for FY 2012 disbursements and
and the General Services Ad-       contracting was incomplete. Specifically, the 9.6 percent improper payment rate included only a
ministration (GSA) OIG.            portion of the errors identified as the SBA did not report errors that it determined to be the re-
                                   sult of inadequate or missing documentation. Further, the OIG found that SBA personnel did
Massachusetts Man                  not consistently apply the FY 2012 Improper Payment Test Plan for disbursements and con-
Sentenced for Obstruction of       tracting. Consequently, they classified a number of payments as having met the test plan crite-
an Official Proceeding             ria. In addition, they tested payments not related to contracting disbursements. The OIG rec-
                                   ommended four actions directed to the Chief Financial Officer to improve financial and contract
On October 8, 2013, a Massa-       management at the SBA and significantly decrease the total number of future improper pay-
chusetts man was sentenced         ments.
to 12 months’ probation and
a $5,000 fine as a result of his                                          Office of Inspector General
guilty plea to one count of                                                   Peggy E. Gustafson
obstruction of an official pro-                                                Inspector General
                                                                                       ***
ceeding. The investigation
                                                  To promote integrity, economy, and efficiency, we encourage you to report
disclosed that he received a
                                              suspected instances of fraud, waste, abuse, or mismanagement in any SBA program
subpoena for records relating                                                to the OIG Hotline* at
to his business dealings with                                http://www.sba.gov/office-of-inspector-general/2662
another company and re-
lating to claims that the other                                 Or call the OIG Hotline toll-free, at (800) 767-0385
company was an SDVOB.
Further, he was aware that                   *In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act,
he had documents on his                      confidentiality of a complainant’s personally identifying information is mandatory, absent
computer that were respon-                   express consent by the complainant authorizing the release of such information.
sive to the subpoena and
relevant to the pending inves-
tigation, but he deleted them
                                                We welcome your comments concerning this update or other OIG publications.
nonetheless.      This referral                         To obtain copies of these documents please contact us at:
was received from the Gov-
ernment Accountability Office                                          SBA Office of Inspector General
(GAO) FraudNet, and is a joint                                          409 Third Street SW, 7th Floor
investigation with the VA                                                  Washington, DC 20416
OIG, U.S. Army/Criminal In-                                                 E-mail: oig@sba.gov
vestigation Command (Army                                      Telephone: (202) 205-6586 FAX (202) 205-7382
CID), and the GSA OIG.                                       Many OIG reports can be found on the OIG’s website at
              ***                                              http://www.sba.gov/office-of-inspector-general

                                                        To view recent press releases, click here, or visit our website at
                                                             http://www.sba.gov/office-of-inspector-general/17611
